No. - - IN THE SUPREME COURT OF THE UNITED STATES

WILMAR RENE DURAN GOMEZ, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the petition for a writ
of certiorari contains 8,995 words, excluding the parts of the brief exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 3, 2021.

/s/ Cullen Macbeth
Cullen Macbeth
Assistant Federal Public Defender
Federal Public Defender's Office
District of Maryland
6411 Ivy Lane, Suite 710
Greenbelt, MD 20770
(301) 344-0600
cullen_macbeth@fd.org

